SEPTEMBER 25, 2009
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     NASA SHOULD RECONSIDER THE AWARD
 EVALUATION PROCESS AND CONTRACT TYPE FOR THE
  OPERATION OF THE JET PROPULSION LABORATORY




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-022-Redacted (ASSIGNMENT NO. A-08-016-00)
Note: This redacted version of the report omits predecisional information that is exempt
from public release under the Freedom of Information Act, exemption (b)(5).


Final report released by:

   signed
Debra D. Pettitt
Acting Assistant Inspector General for Auditing




Acronyms

CPAF         Cost-Plus-Award-Fee
CPFF         Cost-Plus-Fixed-Fee
CPM          Contract Performance Monitor
ESMD         Exploration Systems Mission Directorate
FAR          Federal Acquisition Regulation
FDO          Fee Determination Official
FFRDC        Federally Funded Research and Development Center
FY           Fiscal Year
GAO          Government Accountability Office
JET          JPL Evaluation Tool
JPL          Jet Propulsion Laboratory
MEP          Mars Exploration Program
MRO          Mars Reconnaissance Orbiter
MSL          Mars Science Laboratory
NFS          NASA FAR Supplement
NMO          NASA Management Office
OIG          Office of Inspector General
PEB          Performance Evaluation Board
PPE          Primary Performance Evaluator
SMD          Science Mission Directorate
SOMD         Space Operations Mission Directorate


                                                                   REPORT NO. IG-09-022-R
SEPTEMBER 25, 2009




                                                                                                 OVERVIEW

         NASA SHOULD RECONSIDER THE AWARD EVALUATION
       PROCESS AND CONTRACT TYPE FOR THE OPERATION OF THE
                   JET PROPULSION LABORATORY

                                                                                                   The Issue

  The Jet Propulsion Laboratory (JPL) is a NASA federally funded research and
  development center (FFRDC) operated under contract by the California Institute of
  Technology (Caltech), a private nonprofit educational institution. The NASA
  Management Office (NMO) at JPL oversees the contract. Since 1993, NASA has
  awarded three cost-plus-award-fee (CPAF) contracts 1 to Caltech for the operation of JPL.
  Work under these contracts has included accomplishments in astrophysics, earth sciences,
  solar system exploration, and technology. Examples since 2003 include “Spirit” and
  “Opportunity,” the Mars Exploration Rovers; the Spitzer Space Telescope; the
  Microwave Limb Sounder; and the Tropospheric Emission Spectrometer.

  The current 5-year CPAF contract, awarded to Caltech in November 2002, is valued at
  approximately $7.5 billion 2—$1.5 billion per year, including available award fees of
  $22 million. The current contract also includes an award term incentive, allowing
  Caltech to earn term extensions on the contract in increments of 3 or 9 months for up to
  an additional 5 years. The potential total value of these incentives is $7.5 billion. Award
  fee and award term determinations for the JPL contract are made by the NASA Associate
  Administrator based on annual evaluations of the contractor’s performance against
  criteria established in the NASA “Award Fee Contracting Guide,” June 27, 2001.

  We initiated this audit to determine whether NASA appropriately calculated and justified
  the award fees and term extensions earned by Caltech for the operation of JPL. (See
  Appendix A for details of the audit’s scope and methodology.)




  1
      The Federal Acquisition Regulation, Subpart 16.305, “Cost-Plus-Award-Fee Contracts,” defines a CPAF
      contract as a cost-reimbursement contract that provides for a fee consisting of (a) a base amount (which
      may be zero) fixed at inception of the contract, and (b) an award amount, based on a judgmental
      evaluation by the Government, sufficient to provide motivation for excellence in contract performance.
  2
      The contract states that the estimated cost of the contract will be “the sum of the estimated costs set forth
      in task orders issued.”



REPORT NO. IG-09-022-R
                                                                                                  OVERVIEW



     Results

     NASA can improve its management of the JPL contract:

           •    NASA’s overall assessment of contractor performance may have been overstated
                because the Agency’s performance evaluations for fiscal year (FY) 2007 were
                incomplete or did not otherwise comply with its guidance.

           •    The contractor’s poor performance on a large, significant project was offset in
                NASA’s assessment by higher performance on smaller projects because the
                Agency did not use proportional weighting in its evaluations.

           •    NASA’s award of $16 million in fees and 27 months of contract term extensions,
                valued at $3.375 billion, were unsupported because the Agency’s performance
                evaluation factors did not include an assessment of required cost control
                measures.

           •    NASA does not have assurance that the existing contract still meets its needs or
                provides the best value for the taxpayer because the Agency did not fully comply
                with Federal Acquisition Regulation (FAR) requirements for a 5-year
                comprehensive review of the use and need for the FFRDC.

           •    NASA’s use of a single CPAF contract for all aspects of the FFRDC creates a
                significant administrative and management burden for the Agency that is
                unnecessary given that there is a basis for the contracting officer to establish fair
                and reasonable prices for routine operations and maintenance of the facility.

     The Assistant Administrator for Procurement and the NMO concurred with our
     recommendations to address these issues and agreed that there are potential monetary
     benefits associated with their implementation.

     We found that performance evaluations and the method used to calculate the award fee
     score for Caltech’s FY 2007 performance may not accurately reflect the overall
     performance of the contractor (Finding A). For the period of performance ending
     September 30, 2007, this resulted in potentially higher ratings, which could have led to
     NASA inappropriately paying award fees and awarding a term extension. Although the
     criteria used for evaluating the contractor’s performance were sufficiently specific and
     measurable, NASA evaluators provided incomplete assessments or assigned
     inappropriate ratings. For example, the evaluation for one criterion stated that the
     contractor did not meet the Satisfactory or Excellent standards due to cost; however, the
     evaluator provided a rating of Good, 3 stating that he did not want to penalize the

     3
         NASA guidance requires adjectival ratings (Excellent, Very Good, Good, Satisfactory,
         Poor/Unsatisfactory) to be used for award-fee contracts.



ii                                                                                    REPORT NO. IG-09-022-R
OVERVIEW



  contractor’s technical performance for poorer cost performance. In addition, there is no
  documentation to indicate that criteria were proportionately weighted by a project’s
  overall importance to NASA or by project cost, which allowed exceptional contractor
  performance on smaller projects to conceal poorer performance on a larger, more
  significant project.

  In addition, the performance evaluation factors did not include cost control measures
  weighted at no less than 25 percent of the total weighted evaluation factors, as required by
  NASA guidance. We calculated that cost control measures were weighted between
  5 percent and 14 percent of the total (Finding B). The low percentage weighting
  deemphasized the importance of controlling cost, minimized the effectiveness of cost
  control, and gave the contractor minimal incentive to control costs. As a result, a portion
  of Caltech’s award fees were unsupported costs and an ineffective use of Government
  funds. Specifically, we consider $16 million of the $97 million paid in award fees for
  Caltech’s performance under the 2003 contract to be unsupported. In addition, we
  question the 27 months in term extensions, valued at approximately $3.375 billion,
  awarded to Caltech.

  We also found that NASA did not adequately consider alternative sources for the
  operation of JPL as an FFRDC and could not provide support to justify its decision to
  continue procuring the services of Caltech (Finding C). The FAR requires a
  comprehensive review of the use and need for FFRDCs every 5 years and provides five
  criteria for the review, which is designed to consider alternative sources to meet the
  sponsor’s needs and to ensure that the contractor is providing the best value for the
  taxpayer. However, the review NASA conducted in 2002 prior to awarding the most
  recent contract for operating its FFRDC, in 2003, was less than exhaustive in its search
  for viable competitors. A review conducted in 2008 addressed four of the five FAR
  criteria, but did not include consideration of alternative sources. NMO Procurement
  Office personnel decided to postpone the search for alternative sources until the current
  contract term, including extensions, was due to expire. Without a comprehensive review
  or assessment of viable competitors that could provide services for the operation of JPL,
  NASA cannot have assurance that it is obtaining the best value for the taxpayer. To be
  compliant with the FAR, NASA should conduct a comprehensive review when the
  contract is extended by an award term, which is, potentially, every year. However, NASA
  may be able to eliminate the completion of successive FFRDC reviews by amending the
  Performance Evaluation Plan to, in effect, escrow all award terms earned or lost during
  the base years of the contract and conducting a comprehensive use and need review at the
  end of the base term.

  Lastly, we determined that a single CPAF contract is not the best contract vehicle to
  procure services from Caltech (Finding D). JPL had been managed using multiple cost-
  plus-fixed-fee (CPFF) contacts for more than 35 years, until NASA consolidated the two
  CPFF contracts to a single CPAF contract in 1993. We concluded that using a single
  CPAF contract for the operation of the entire FFRDC is difficult for NASA to effectively



REPORT NO. IG-09-022-R                                                                           iii
                                                                                       OVERVIEW



     manage because the contractor is responsible for multiple, complex, and often unrelated
     deliverables (for example, products crucial to NASA’s missions in the areas of earth
     sciences and solar system exploration, as well as normal facility functions such as public
     affairs and maintenance of the grounds). In addition, a CPAF contract requires
     significant oversight and documentation to evaluate contractor performance, and NASA
     did not perform a cost-benefit analysis to ensure that the benefits of a CPAF contract
     adequately offset the additional costs associated with contract administration. NASA also
     did not adequately evaluate alternative contract vehicles to support JPL operations. As a
     result, NASA may not be getting the best value for the taxpayer.

     Management Action

     To ensure that evaluations appropriately reflect contractor performance, we recommended
     that NASA provide detailed, explicit direction to contract performance evaluators
     concerning their responsibilities, monitor the documentation provided by the evaluators
     for accuracy and completeness, and apply a weighting factor to each criterion or project
     based on significance and cost. In addition, the NMO Procurement Officer should
     (1) modify the “Performance Evaluation Plan for Management of the Jet Propulsion
     Laboratory” to clearly include cost control measures weighted at no less than 25 percent
     of the performance evaluation factors; (2) perform a comprehensive use and need review
     of the FFRDC, to include a proactive search for alternative sources; (3) consider
     amending the Performance Evaluation Plan to “escrow” earned award terms;
     (4) reevaluate the use of award terms for any future FFRDC contract; and (5) perform a
     cost-benefit analysis and evaluate alternative contract vehicles for any FFRDC follow-on
     contracts.

     Comments from the Assistant Administrator for Procurement; the NMO Director, JPL;
     and the NMO Procurement Officer in response to a draft of this report concurred with our
     recommendations; in subsequent correspondence, the NMO agreed that there are potential
     monetary benefits to implementing the recommendations. The Assistant Administrator
     for Procurement, who signed the comments, stated that the NMO will propose additional
     language to clarify the performance evaluation process; ensure evaluation submissions are
     complete; request that annual criteria is weighted; capture cost control at no less than
     25 percent of the award fee evaluation score; proactively consider alternative sources;
     reconsider the use of award term incentives in future JPL or FFRDC contracts; conduct a
     cost-benefit analysis if a CPAF contract is used again; and consider alternative contract
     vehicles for the next FFRDC contract. See Appendix D for the full text of management’s
     comments, including an appendix of “Technical Comments” providing clarifying details
     on certain issues.

     We consider management’s proposed actions to be responsive for all recommendations.
     The recommendations are resolved and will be closed upon completion and verification
     of management’s corrective actions.



iv                                                                      REPORT NO. IG-09-022-R
SEPTEMBER 25, 2009




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 3

  RESULTS
      Finding A: Contractor Performance Evaluations and Method
                  Used to Calculate Ratings May Not Reflect Overall
                  Performance _______________________________ 4
      Finding B: Cost Control Evaluation Factor Did Not Meet the
                  Required 25 Percent ________________________ 13
      Finding C: Continuation of JPL as an FFRDC Was Not Adequately
                  Justified _________________________________ 16
      Finding D: A Single CPAF Contract Is Not the Best Vehicle
                  for Managing NASA’s FFRDC__________________ 21

  APPENDIX A
      Scope and Methodology _______________________________ 27
      Review of Internal Controls ____________________________ 28
      Prior Coverage ______________________________________ 29

  APPENDIX B
      Award Fee Process ___________________________________ 30

  APPENDIX C
      FY 2007 Evaluation Criteria ____________________________ 31

  APPENDIX D
      Management Comments ______________________________ 33

  APPENDIX E
      Report Distribution ___________________________________ 38




REPORT NO. IG-09-022-R
SEPTEMBER 25, 2009




                                                                      INTRODUCTION


Background

  The Jet Propulsion Laboratory (JPL) is a NASA federally funded research and
  development center (FFRDC) operated under contract by the California Institute of
  Technology (Caltech), a private nonprofit research university located in Pasadena,
  California. In November 1943, JPL received funding from the U.S. Army Air Corps
  (Army); the Army formally transferred JPL to NASA, although it remained under the
  management of Caltech, in December 1958.

  From 1958 to 1993, NASA procured services from Caltech for the operation and
  management of the FFRDC using cost-plus-fixed-fee (CPFF) contracts. A CPFF contract
  is a cost-reimbursement contract that provides for payment to the contractor of a
  negotiated fee that is fixed at the contract’s inception. The fixed fee does not vary with
  actual cost, but may be adjusted as a result of changes in the work to be performed under
  the contract. Starting in the 1970s, there were two CPFF contracts—one for research and
  development activities and the other for operation of the facility. In 1993, the two CPFF
  contracts were consolidated into a single cost-plus-award-fee (CPAF) contract. A CPAF
  contract is a cost-reimbursement contract that provides for a fee consisting of (1) a base
  amount fixed at inception of the contract, and (2) an award amount that the contractor
  may earn in whole or in part during the performance period. Since 1993, NASA has
  awarded three CPAF contracts to Caltech for the operation of JPL: NAS7-1260 in 1993;
  NAS7-1407 in 1998; and NAS7-03001 in 2003 (the current contract). The 2003 contract
  included, for the first time, an award term incentive. This incentive is used to reward the
  contractor by extending the contract period of performance without a new competition or
  to penalize the contractor by shortening the performance period for poor execution of
  contract requirements.

  The 2003 contract afforded Caltech the opportunity to earn both award fees and award
  terms. Award fees are intended to encourage and reward the contractor for excellence in
  such areas as quality, timeliness, technical ingenuity, and cost-effective management.
  The available award fee pool was $22 million for each annual performance period, or
  $110 million over the 5 years of the contract’s initial period of performance. By the end
  of fiscal year (FY) 2008, Caltech had earned $97.02 million in award fees.

  Contract Clause H-54, “Award Term,” allows NASA to increase or decrease the
  contract’s initial 5-year performance period for up to an additional 5 years, in increments
  of 3 or 9 months, based on the performance of the contractor. The total period of
  performance for the contract cannot exceed 10 years. The contract’s initial period of
  performance was from October 1, 2003, through September 30, 2008, and by the end of



REPORT NO. IG-09-022-R                                                                          1
                                                                                  INTRODUCTION



    FY 2008, Caltech had earned additional award terms totaling 27 months, valued at
    approximately $3.375 billion, which extended the contract’s period of performance to
    December 31, 2010. The value of the extended, 7¼-year contract is estimated at
    $10.875 billion.

    Award fee and award term determinations are made by the Fee Determination Official
    (FDO), who is the NASA Associate Administrator, based on the proposed adjectival
    ratings and numerical scores for the evaluation factors provided by the Performance
    Evaluation Board (PEB). The NASA “Award Fee Contracting Guide,” June 27, 2001,
    requires the following adjectival ratings and numerical scores to be used on all award-fee
    contracts:
       •   Excellent, 100-91;
       •   Very Good, 90-81;
       •   Good, 80-71;
       •   Satisfactory, 70-61; and
       •   Poor/Unsatisfactory, less than 61.

    The Guide states that the award fee earned is calculated by applying the total numerical
    score (the award fee score) to the award fee pool. For example, an award fee score of 85
    yields an award fee of 85 percent of the award fee pool for that performance period.

    The FDO sets the award fee score based on information provided by the PEB. The PEB
    receives recommended adjectival ratings and numerical scores for a contractor’s
    performance evaluation factors from the Primary Performance Evaluators (PPEs). To
    prepare the primary performance evaluation reports provided to the PEB, the PPEs review
    the criteria and performance evaluations from their organizations’ Contract Performance
    Monitors (CPMs). The CPMs monitor, assess, and evaluate the contractor’s performance
    in assigned areas, documenting their assessments and adjectival ratings in Performance
    Monitor Reports. The ratings assigned by the CPMs are based on their observations and
    knowledge of the quality of the contractor’s work and the contractor’s adherence to the
    established criteria. (See Appendix B for a synopsis of the award fee process.)




2                                                                       REPORT NO. IG-09-022-R
INTRODUCTION



  Table 1 shows the recommended and awarded adjectival ratings and numerical scores, the
  award fees earned, the award terms earned, and the earned award terms’ estimated values
  for FY 2004 through FY 2008.


                       Table 1. FY 2004 through FY 2008 Evaluations and
                             Award Fees and Award Terms Earned

                                                                                Estimated
                    PEB              FDO-         Award Fee                      Value (in
   Fiscal     Recommendation       Awarded        Earned (in   Award Term       millions) of
   Year       for Rating/Score    Rating/Score     millions)     Earned        Award Term
   2004                           Excellent/96      $21.12     plus 9 months      $1,125
   2005                           Very Good/85       18.70     plus 3 months        375
   2006                           Excellent/91       20.02     plus 9 months       1,125
   2007                           Very Good/88       19.36     plus 3 months        375
   2008                           Very Good/81       17.82     plus 3 months        375
    Total                                           $97.02       27 months        $3,375



Objectives

  The audit’s overall objective was to determine whether the award fees and award terms
  earned by Caltech for the operation of JPL were appropriately calculated and justified.
  Specifically, we determined whether

      •     the contractor’s performance ratings were completed in accordance with the
            established criteria;

      •     evaluators’ recommendations on earned award fees and award terms were based
            on valid collection methods and supportable data; and

      •     the award fees and award term extensions earned by Caltech accurately reflected
            the contractor’s overall performance, cost, and schedule.

  We also reviewed internal controls as they related to the overall objective. See
  Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior coverage.




REPORT NO. IG-09-022-R                                                                         3
                                                                                        RESULTS




                                                 FINDING A: CONTRACTOR
                                           PERFORMANCE EVALUATIONS AND
                                              METHOD USED TO CALCULATE
                                               RATINGS MAY NOT REFLECT
                                                  OVERALL PERFORMANCE

           For FY 2007, performance evaluations for Caltech and the method NASA used to
           calculate the ratings may not reflect the overall performance of the contractor. The
           NASA “Performance Evaluation Plan, General Guidance for Writing Annual Award
           Fee Criteria,” August 9, 2006, states that “[q]uantitative measures should be used
           whenever the effectiveness or efficiency of the given performance can be
           unequivocally measured.” In addition, NASA’s Award Fee Contracting Guide states
           that contractor performance evaluation factors should be explicit, tied to desired
           outcomes, and based on characteristics of an individual procurement. We found that
           the criteria used for evaluating Caltech’s performance were sufficiently specific and
           measurable and could be used to make an objective assessment of the contractor’s
           performance. However, NASA evaluators provided incomplete assessments or
           assigned inappropriate ratings for 12 of the 45 criteria (27 percent) when evaluating
           the contractor’s performance (as shown in Appendix C). In addition, criteria for
           different projects did not appear to be weighted within the evaluation factors by the
           projects’ overall importance to NASA or their costs. This resulted in potentially
           higher ratings than warranted and the possibility that Caltech inappropriately
           received award fees and term extensions.


Quantifiable and Measurable Award Fee Criteria Are Required

    NASA’s General Guidance for Writing Annual Award Fee Criteria states:

       •   Annual award fee criteria should be as specific and measurable as possible.
           Specific and measurable criteria will assist the CPMs in evaluating contractor
           performance and assist the contractor in understanding NASA’s expectations and
           the manner in which its performance will be evaluated.

       •   Where feasible, quantitative or objective measures are preferred over qualitative
           or subjective ones. Quantitative measures should be used whenever the
           effectiveness or efficiency of the given performance can be unequivocally
           measured.

       •   Award fee criteria should be crafted to make it as easy as possible to make an
           objective assessment of contractor performance and to minimize the subjectivity
           of the process.


4                                                                       REPORT NO. IG-09-022-R
RESULTS



  NASA’s Award Fee Contracting Guide, Section 3.7.4, “Documentation,” states:

      •   The reporting formats used by monitors should be structured to ensure clarity and
          conciseness. The narrative comments provide detailed, pertinent information.
          For example, they cover the circumstances under which reported performance
          levels were achieved. These comments also discuss the contractor’s efficiency in
          managing assigned personnel and other resources. Enough detail should be
          included in reports to the PEB to ensure their findings and recommendations are
          accurate and fair and can be supported to the FDO.

      •   Appropriate documentation is vital to support the recommendations of PEBs,
          particularly where these recommendations differ from the conclusions reported by
          cognizant monitors. Since the evaluation is a judgment, based on all pertinent
          information, that information needs to be identified, discussed, and substantiated
          in the documentation. The FDO will want to review the documentation to satisfy
          any concerns regarding contractor performance before deciding whether to accept
          the recommended award fee or some higher or lower amount.


Performance Evaluations Could More Accurately Reflect
  Contractor Performance

  We determined that the FY 2007 award fee criteria were specific and measurable and
  could be used to make an objective assessment of the contractor’s performance.
  However, NASA CPMs provided either incomplete assessments or inappropriate ratings
  when evaluating the contractor’s performance for 12 of the 45 (27 percent) FY 2007
  criteria. Higher ratings may have occurred in part because the FY 2007 Performance
  Evaluation Plan did not require the rating official (CPM or PPE) to address all elements,
  or metrics, of the criteria in the evaluation. The online form only included comment
  boxes for “Degree to which contractor performance met established performance
  standards,” “Specific Strengths,” “Weaknesses,” and “Mitigating Factors,” which allowed
  the evaluator to decide what specific criteria metrics to address. In addition, although the
  Performance Evaluation Plan contained both general criteria and annual criteria, none of
  the CPMs and PPEs that we interviewed indicated that the general criteria was addressed.
  The Performance Monitor Reports only addressed the annual criteria.

  For example, the criterion “Office of Safety and Mission Assurance-2” has five metrics,
  which were not completely addressed in the assessment. Following is the standard for an
  Excellent rating:

          In a ddition to meeting the satisfactory performance standard, [Caltech must] achieve
          continual im provement in th e e ffective im plementation o f J PLs q uality a ssurance
          program, to include the following: [1] Implement improvements in the material review
          board process for procured JPL Critical Items, and in the process of identification and
          documentation o f i nspection cr iteria. Update applicable p rocedures an d t raining.



REPORT NO. IG-09-022-R                                                                              5
                                                                                                             RESULTS



               [2] Finalize a nd implement a s upplier r ating s ystem th at in corporates a ppropriate
               rating factors, captures all necessary data, and produces necessary reports for users to
               better assess and select suppliers. [3] Finalize and implement a standard set of defect
               codes to identify non-conformances. [4] Develop a Q uality A ssurance E ngineering
               handbook to promote co nsistency in the p erformance o f hardware q uality assurance.
               [5] Define, co llect, an d an alyze a s tandard s et o f quality metrics to monitor the
               execution of quality assurance activities.

    The Performance Monitor Report for this criterion for Caltech’s FY 2007 performance
    states that




                 .




                                                                                    .4


                                                                                                           . The
    Satisfactory standards for the criterion state:

               Start E nvironmental T ests o n s chedule in mid-October 2007. Complete pr e-ship
               review and ship on schedule (mid-May ’07) with no critical issues identified. Launch
               on schedule (August ’07), completing all tests in the incompressible test list. Total
               mission cost equals the mission’s Confirmed cost cap ($383M), plus augmentation of
               no more than $29M ($410M total) per December 7th Cost-to-Go Review, and with
               minimum work to be done post launch. Ship and launch risk rated medium-to-low.

    The Satisfactory standard stipulates that the contractor could not request augmentation of
    more than $29 million.




    4
        Management’s comments (see Appendix D, page 39) specifically address this example, noting that rating
        officials are not required to document all elements of the rating criteria and that the Office of Safety and
        Mission Assurance considered the assessment “to have properly evaluated each rating element and to have
        fulfilled the documentation instructions.” The comments state that future evaluations will fully document
        each rating element.



6                                                                                        REPORT NO. IG-09-022-R
RESULTS




                                     .


A Documented Tendency toward High Ratings and Awards

  In 2007, a Government Accountability Office (GAO) report, “NASA Procurement: Use
  of Award Fees for Achieving Program Outcomes Should Be Improved” (GAO-07-58,
  January 17, 2007), found that NASA paid most of the available award fee on all of the
  contracts that GAO reviewed, including contracts for projects that showed cost increases,
  schedule delays, and technical problems. The report stated that NASA paid more than
  90 percent of the available fee based on its evaluation of the contractor’s performance
  against criteria even when those contractors did not deliver capability within initial cost,
  schedule, and performance parameters. The 2003 JPL contract included $110 million in
  award fees for the initial 5-year performance period; by the end of FY 2008, NASA had
  paid Caltech $97.02 million (88 percent) in award fees.

  In interviews with Office of Inspector General (OIG) auditors, the NMO Procurement
  Office staff stated that high performance ratings are critical to the JPL contractor and that
  a satisfactory rating is perceived as a negative. High performance ratings correlate to
  significant award fees and additional award terms for the contractor. Our review of the
  evaluations for the award fee criteria indicated that Caltech received a rating above
  satisfactory more than 95 percent of the time. Specifically, the FY 2007 ratings for the
  45 criteria (listed in Appendix C) were 31 Excellent, 8 Very Good, 4 Good,
  1 Satisfactory, and 1 Poor/Unsatisfactory.

  The potential for inflated evaluations as the result of long-term contracting relationships
  was noted by Vernon Edwards, a consultant in Government contracting who has written
  several articles on the use of award terms. In an October 2000 article, “Award Term: The
  Newest Incentive,” 5 he states:

             A potential disadvantage of a long-term relationship is the possibility that the agents
             of the contracting parties will begin to conduct business on a personal basis instead of
             a p roper p rofessional b asis. C ontractual r elationships ar e, af ter all, human
             relationships. P eople who have come to know and like one another in the course of
             time may relax their standards and overlook performance deficiencies for the sake of
             their personal r elations; t hey may b ecome r eluctant t o cr iticize o r t o t ake an act ion
             that could hurt the other person. On the other hand, a change in personnel may bring
             conflict as the parties try to adapt to new personalities and changes in long-standing

  5
      Available online at http://www.wifcon.com/anal/analaterm.htm (accessed September 11, 2009).



REPORT NO. IG-09-022-R                                                                                         7
                                                                                                       RESULTS



               ways of seeing, understanding, and doing. These sorts of developments are probably
               a natural and unavoidable byproduct of long-term business relationships.


Lack of Proportionate Weighting May Lead to Inflated
  Performance Scores

    NASA did not appear to use proportionate weighting of criteria and, therefore, the
    process used to arrive at Caltech’s award fee score for FY 2007 may not have reflected
    the overall performance of the contractor. For example, the programmatic performance
    evaluation factor comprises 19 criteria for six programs 6 under the Science Mission
    Directorate (SMD), a criterion under the Exploration Systems Mission Directorate
    (ESMD), and one under the Space Operations Mission Directorate (SOMD), as shown in
    the following figure and listed in Appendix C. However, CPMs do not assign numerical
    scores to the criteria; PPEs assign a numerical score to each program, but do not appear to
    consider a criterion’s significance in doing so. SMD’s overall score is the average of the
    six programs’ numerical scores.




    6
        The SMD programs are Astrophysics, Earth Science, Heliophysics, Mars Exploration, Planetary Science,
        and Management and Policy.



8                                                                                   REPORT NO. IG-09-022-R
RESULTS



                                   Programmatic Evaluation Factor
                          FY 2007 Criteria and Ratings, by Mission Directorate




                                                                                 E: ....................Excellent
                                                                                 VG: ............. Very Good
                                                                                 G: ......................... Good
                                                                                 S: ................ Satisfactory
                                                                                 P: ... Poor/Unsatisfactory



  In addition, the numerical score of       for the programmatic performance evaluation
  factor was not calculated, either as a straight average or using proportional weighting, but
  was a consensus score subjectively determined by the PEB.

  Without establishing weighted criteria to reflect significance or cost, NASA had no
  assurance that it was accurately evaluating Caltech’s performance. For example, SMD’s
  Mars Exploration Program (MEP) was valued at approximately $477 million in FY 2007,
  accounting for approximately 32 percent of the overall estimated $1.5 billion JPL contract
  for that year. The program includes three projects: the Mars Science Laboratory (MSL),
  Phoenix, and the Mars Reconnaissance Orbiter (MRO), each with a criterion (Mars-1,
  Mars-2, and Mars-3, respectively). The MSL project, valued at $359 million (75 percent
  of the MEP budget), with a cost overrun of $35 million, earned a                         .
  The Phoenix project, valued at $75 million (16 percent), was                        . The
  MRO project, valued at $42 million (9 percent),                              . Although
  the PPE may have considered the projects’ significance when determining the MEP’s
  adjectival rating (               ), there is no documentation of the methodology used for
  that determination or of the methodology used to calculate the numerical score. The
  numerical score assigned by the PPE for the MEP,         , was then averaged with the five


REPORT NO. IG-09-022-R                                                                                               9
                                                                                                                      RESULTS



     other SMD programs to provide an overall SMD score. This process and calculation
     method essentially conceals poor performance because a small project with a high rating,
     such as the MRO project, carries the same weight as a more significant project that costs
     more, such as the MSL project, which                         .

     We reevaluated the MEP using a weighted calculation that was based on the projects’
     percent of the FY 2007 MEP budget. Because the projects were not given numerical
     scores, we used the score at the top of the range for the adjectival rating assigned by the
     CPMs (see Table 2). Using this method, we determined that the MEP

                     —which would have also affected the subsequent SMD rating and score.

                   Table 2. Weighted Evaluation of the Mars Exploration Program by Cost
                                                                                       OIG Calculation
                       Dollars
                        Spent         Percent        Adjectival          Numerical           Weighted          Adjectival
         Project      (millions)      of Total        Rating              Score*              Score             Rating
         MSL          $359.479          75.43                                                   45.26
         Phoenix         75.462         15.83                                                   12.67
         MRO             41.637          8.74                                                    8.74
          MEP         $476.578         100.00                                                   66.66         Satisfactory
         * High end of adjectival rating’s range. Multiplying these scores by the project’s percent of the MEP budget yields
           the weighted numerical score.


     Although the methodology was not documented, NASA personnel stated that project
     significance was considered when determining ratings. Using the significance order
     provided by the PPE (                                               ), we considered
     significance alone to determine a weighted score for the MEP using arbitrary percentages
     based on the projects’ order of significance (see Table 3). We then averaged that score
     (76) with the score we determined using cost alone (66.7), which results in an overall
     grade of Good (72). 7 However, without documenting its methodology, NASA cannot be
     assured of the accuracy of its evaluation process.




     7
         Management’s comments (see Appendix D, page 39) specifically addressed this example, noting that it
         “does not readily suggest a shortcoming on the part of the Mars Program PPE’s evaluation.” For our
         calculations, we assigned arbitrary percentages because CPMs only assign adjectival ratings, not
         percentages. To obtain numerical scores for our calculations, we used the numerical score at the high end
         of the given adjectival rating. Therefore, while our calculation resulted in a grade of 72 for the Mars
         Exploration Program, it does not mean to imply that the number is accurate.



10                                                                                               REPORT NO. IG-09-022-R
RESULTS




         Table 3. Weighted Evaluation of the Mars Exploration Program by Significance
                                                                                    OIG Calculation
                           Significance
                            Rankinga                Adjectival          Numerical         Weighted        Adjectival
         Project            (percent)                Rating              Scoreb            Score           Rating
    MSL
    Phoenix
    MRO
        MEP                                                                                    76             Good
    a
        The OIG-assigned, arbitrary percentages to reflect the projects’ order of significance, as stated by the PPE.
    b
        High end of adjectival rating’s range. Multiplying these scores by the project’s significance ranking
        percentage within the MEP yields the weighted numerical score.


  Despite the importance of the projects that Caltech manages under the JPL contract,
  NASA has not established weighted criteria relative to their significance or cost. Large
  projects appear to be equally evaluated in the award fee process and have minimal impact
  on the award fee scores, even if the standard of excellence is not met. MSL, which was
  worth approximately 24 percent of the total $1.5 billion FY 2007 contract and
                                      , appeared to be weighted the same as any of the other
  criteria in the programmatic factor. Averaging these ratings rather than weighting
  projects according to their relative importance to NASA’s mission or their budgets does
  not ensure an accurate assessment of overall contractor performance.

  NASA’s failure to objectively support the performance ratings and proportionately weight
  the evaluation factors’ criteria relative to their significance resulted in potentially higher
  ratings than warranted and the possibility that Caltech inappropriately received award fees
  and term extensions. Since 2003, Caltech has earned more than $97.02 million in award
  fees and 27 months in award term extensions, valued at approximately $3.375 billion.
  The additional award terms also resulted in the contract being extended without
  competition.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The NASA Management Office Procurement Officer should provide
in the Performance Evaluation Plan, or other applicable documents, specific, explicit
direction to the Contract Performance Monitors to evaluate and document the contractor’s
annual performance for all of the criteria’s metrics under the evaluation factors.

  Management’s Response. The Assistant Administrator for Procurement concurred,
  stating that the NMO will propose clarifying language for consideration by the PEB. The



REPORT NO. IG-09-022-R                                                                                                  11
                                                                                                       RESULTS



     Performance Evaluation Plan will be updated with the clarifying language and submitted
     to the FDO by August 31, 2009, and explicit direction will be given in the e-mail texts for
     the mid-year and final award fee evaluation calls.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive. The recommendation is resolved and will be closed upon completion and
     verification of corrective actions to be taken during the mid-year (March 2010) and final
     (September 2010) award fee evaluation calls.

Recommendation 2. The NASA Management Office Procurement Officer should monitor
Contract Performance Monitors’ input for accuracy and completeness.

     Management’s Response. The Assistant Administrator for Procurement concurred,
     agreeing with the intent of the recommendation. The NMO will work with those
     directorates and offices providing evaluation input to ensure that the input is complete. In
     September 2009, the NMO will convene a meeting of CPMs and PPEs to address our
     report recommendations. Further, explicit direction will be given in the e-mail texts for
     the mid-year and final award fee evaluation calls. As stated in the “Technical
     Comments” appendix of management’s comments:

            The NMO concurs with the need for a renewed emphasis on the documentation of the
            evaluation process at all levels, but particularly at the CPM and PPE stages. T his is
            particularly im portant in th is s ituation w here b oth s ubjective ( programmatic a nd
            strategic influence factors) and objective (quantitative measures or metrics) elements
            must be integrated in order to obtain a rational performance evaluation.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive. The recommendation is resolved and will be closed upon completion and
     verification of corrective actions to be taken at the September 2009 meeting and during
     the mid-year (March 2010) and final (September 2010) award fee evaluation calls.

Recommendation 3. The NASA Management Office Procurement Officer should include
in the Performance Evaluation Plan a weighting factor for each criterion or project based on
significance and cost, as determined by the Performance Evaluation Board.

     Management’s Response. The Assistant Administrator for Procurement concurred,
     stating that the NMO will submit the weighting request to the JPL-sponsoring
     Headquarters offices and will then implement the requirements approved by the PEB
     relative to weighting individual annual criteria. The estimated completion date is
     September 30, 2010.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive. The recommendation is resolved and will be closed upon completion and
     verification of management’s corrective actions.




12                                                                                    REPORT NO. IG-09-022-R
RESULTS




                                                    FINDING B: COST CONTROL
                                                      EVALUATION FACTOR DID
                                                      NOT MEET THE REQUIRED
                                                                 25 PERCENT

          NASA did not effectively employ cost control as a measure for monitoring JPL’s
          contract performance because “cost control” was not established as a separate
          performance evaluation factor in the CPAF contract. The NASA supplement to the
          Federal Acquisition Regulation (FAR), NASA FAR Supplement (NFS)
          Version 04.0, November 1, 2004, Subpart 1816.4, “Incentive Contracts,” requires
          that CPAF contracts include a separate cost control evaluation factor worth no less
          than 25 percent of the total weighted evaluation factors. The NASA Management
          Office (NMO) Procurement Officer stated that cost control was included within the
          criteria of the programmatic evaluation factor. However, we determined that while
          the performance evaluation factors included some cost control measures, the
          combined weight of those measures was only 5 percent to 14 percent of the total
          weighted factors each year, far below the 25 percent requirement. In addition, NASA
          evaluators did not reference the cost control measures sufficiently in their evaluations
          to meet the intent of the NFS with regard to monitoring and controlling cost. As a
          result, we calculated that $16 million of the $97 million paid in award fees for
          Caltech’s performance under the 2003 contract were not in compliance with NFS
          requirements. Therefore, we consider that amount to be unsupported and an
          ineffective use of Government funds. We also question the 27 months in term
          extensions, valued at approximately $3.375 billion, awarded to Caltech.


NASA FAR Supplement Requires Cost Control Evaluation Factor

  FAR 16.402-1, “Cost Incentives,” states that most incentive-type contracts, including
  CPAF contracts, are required to contain a cost incentive or constraint.
  NFS 1816.405-274, “Award Fee Evaluation Factors,” requires a cost control evaluation
  factor in all award-fee contracts and that the cost control factor be no less than 25 percent
  of the total weighted evaluation factors. NFS 1816.405-274 further states that the
  predominant consideration when evaluating cost control should be an objective
  measurement of the contractor’s performance against the estimated cost of the contract,
  including the cost of undefinitized contract actions, when appropriate. NASA’s Award
  Fee Contracting Guide, Section 3.4.3, “Weighting of Evaluation Factors,” reflects this
  requirement, stating that “cost control should always be a substantial [evaluation] factor.
  When percentage weights are used, the cost control factor will be at least 25 percent of
  the total award fee. . . . This ensures that the factors are balanced and, when making trade-
  offs, the contractor assigns the proper importance to all factors.”



REPORT NO. IG-09-022-R                                                                            13
                                                                                           RESULTS



     NASA did not effectively employ cost control as a measure for monitoring Caltech’s
     performance. The Performance Evaluation Plan did not include cost control as a separate
     performance evaluation factor. For example, although 12 of the 45 criteria for the
     performance evaluation factors in the FY 2007 Plan included some cost control measures,
     those cost control measures were not weighted to be at least 25 percent of the total
     weighted evaluation factors, as required by the NFS and NASA’s Award Fee Contracting
     Guide. The NMO Procurement staff stated that the required 25 percent cost factor was
     included in the programmatic factor, but could not support that statement.

     The Performance Evaluation Plan distinguished three evaluation factors—programmatic,
     institutional, and outreach—but did not include cost control as a separate factor. We
     found that cost control was included as one of three elements under the programmatic
     evaluation factor and that the institutional evaluation factor included a cost control
     criterion. However, the Performance Evaluation Plan did not specify the weight assigned
     to the cost control measures included in the evaluation factors. The July 2005
     Procurement Management Survey Report by the NASA Office of Procurement, noted that
     “although there [was] not a specific breakout of the weightings of the sub-factors, it [was]
     clear that cost control [was] something less than 25 percent.”

     Cost control measures included in the performance evaluation factors were not sufficient
     to meet the intent of the NFS. We reviewed the FY 2007 award fee criteria and
     determined that 12 criteria within the programmatic and institutional factors contained
     some measure of cost control. We calculated the weight of those cost control measures to
     be 12 percent, which is well below the required 25 percent. (See Appendix A for a
     discussion of our calculation.)

     Insufficient cost control measures gave minimum incentive for the contractor to control
     cost because a poor cost control performance rating could easily be offset by non-cost
     factors. In addition, the low percentage weighting deemphasized the importance of
     controlling cost and minimized the effectiveness of cost control. Because the evaluation
     factors did not include weighted cost control measures of at least 25 percent, as required
     by the NFS, but 12 percent, we determined that 13 percent of the award fees paid to
     Caltech for the FY 2007 performance period were not in compliance with NFS
     requirements. Similar low percentages, ranging from 5 percent to 14 percent, of cost
     control were evident in the other performance periods of the contract. Therefore, we
     consider $16,033,600 (17 percent) of the $97,020,000 award fees to be unsupported costs
     and an ineffective use of Government funds. Table 4 shows how we determined the
     portion of award fees that were not in compliance with NFS requirements.




14                                                                        REPORT NO. IG-09-022-R
RESULTS




                                    Table 4. Summary of Paid Award Fees
                                          FY 2004 through FY 2008

 Award
  Fee             Available          Award Fee            Paid            Unmet Weight       Portion of Award Fee
 Period           Award Fee           Score             Award Fees        of Cost Factor      Not NFS-Compliant

 FY 2004          $22,000,000         96 percent        $21,120,000         19 percent            $4,012,800

 FY 2005           22,000,000         85 percent         18,700,000         20 percent             3,740,000

 FY 2006           22,000,000         91 percent         20,020,000         19 percent             3,803,800

 FY 2007           22,000,000         88 percent         19,360,000         13 percent             2,516,800

 FY 2008           22,000,000         81 percent         17,820,000         11 percent             1,960,200

   Total         $110,000,000                           $97,020,000                             $16,033,600



   Because NASA did not effectively employ cost control as a performance measure for the
   JPL contract, NASA’s evaluation of Caltech’s performance could have resulted in
   inappropriately awarded fees and term extensions. Further, if management does not
   change the Performance Evaluation Plan criteria to meet the 25 percent cost control
   requirement, future award fees 8 could be awarded without appropriate emphasis on cost
   control.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 4. The NASA Management Office Procurement Officer should modify
the Performance Evaluation Plan to clearly indicate a cost control factor weighted at no less
than 25 percent of the award fee evaluation.

   Management’s Response. The Assistant Administrator for Procurement concurred,
   stating that the NMO will coordinate an implementation strategy that will consider
   developing a process to capture the cost factor. The estimated implementation date is
   September 30, 2010.

   Evaluation of Management’s Response. Management’s action is responsive. The
   recommendation is resolved but will remain open pending corrective actions to be taken
   by September 30, 2010.

   8
       For the FY 2009 and FY 2010 evaluation periods, $44 million in award fees will be available to Caltech
       ($22 million each year).



REPORT NO. IG-09-022-R                                                                                          15
                                                                                                            RESULTS




                                                           FINDING C: CONTINUATION OF
                                                             JPL AS AN FFRDC WAS NOT
                                                                 ADEQUATELY JUSTIFIED

            NASA did not adequately consider alternative sources and could not provide support
            to justify its decision to continue procuring services from Caltech for the operation of
            JPL as an FFRDC. The FAR requires a comprehensive review of the use and need
            for an FFRDC every 5 years. FAR 35.017-4, “Reviewing FFRDCs,” provides five
            criteria for the review, stating that “the sponsor, prior to extending the contract or
            agreement with an FFRDC, shall conduct a comprehensive review of the use and
            need for the FFRDC” and that the review should include consideration of alternative
            sources to meet the sponsor’s needs concerning operation of the FFRDC. However,
            the review NASA conducted in 2002 prior to awarding the most recent contract, in
            2003, was less than exhaustive in its search for viable competitors. A review
            conducted in 2008 addressed four of the five FAR criteria, but did not include
            consideration of alternative sources. NMO Procurement Office personnel decided to
            postpone the review until the current contract term, including extensions, was due to
            expire. Without a comprehensive review or assessment of viable competitors that
            could provide services for the operation of JPL, NASA cannot have assurance that it
            is obtaining best value for the taxpayer.


FAR Specifies a 5-Year Review Requirement for Evaluating an
  FFRDC’s Use and Need

     FAR 35.017, “Federally Funded Research and Development Centers,” specifies the policy
     for the “establishment, use, review, and termination of Federally Funded Research and
     Development Centers (FFRDCs) and related sponsoring agreements.” It states that the
     FFRDC agreement will not exceed 5 years, but can be renewed every 5 years as long as a
     comprehensive review of the use and need for the FFRDC is conducted. Approval to
     continue or terminate the sponsorship shall be based on the results of the comprehensive
     review and rest with the head of the sponsoring agency. The FAR states that the review
     should include the following:

            (1) an examination of the sponsor’s special technical needs and mission requirements
            that are performed b y t he F FRDC t o d etermine whether and at w hat l evel t hey
            continue to exist; (2) consideration of alternative sources to meet the sponsor’s needs;
            (3) an as sessment o f t he ef ficiency and ef fectiveness o f t he F FRDC in meeting the
            sponsor’s n eeds, in cluding th e F FRDC’s a bility to maintain its objectivity,
            independence, q uick r esponse cap ability, cu rrency i n i ts f ield(s) of ex pertise, an d
            familiarity w ith t he n eeds of i ts s ponsor; ( 4) an as sessment o f t he ad equacy of the
            FFRDC management in ensuring a cost-effective operation; and (5) a determination
            that th e c riteria f or e stablishing th e F FRDC c ontinue to be satisfied and t hat t he



16                                                                                       REPORT NO. IG-09-022-R
RESULTS



             sponsoring agreement i s i n c ompliance w ith              FAR 35.017-1, “ Sponsoring
             Agreements.”


NASA Chose to Continue Procuring the Services of Caltech for the
 Operation of JPL Without Adequate Support

  The FFRDC use and need determination review completed in 2002 by NMO personnel
  did address the five FAR criteria. However, the review was not proactive in the search
  for alternative sources because, as stated in the review, NASA concluded that the JPL
  FFRDC was a unique resource. The review did not assess other contractors’ abilities, but
  rather focused on obstacles to procuring services from those contractors, which prevented
  NASA from determining whether alternative sources could perform the work. For
  example, the review indicated obstacles to not retaining Caltech, such as closeout liability
  and procurement of NASA’s physical records from Caltech. The backup support for the
  review indicated two potential competitors but stated “a one-to-one comparison [was] not
  possible.” NMO personnel confirmed that the acquisition team assembled for this review
  did not contact the two potential alternative sources to determine whether they could
  perform the work of Caltech.

  The most recent review performed in 2008 addressed four of the five FAR criteria, but
  did not include a consideration of alternative sources because earning additional years
  postponed the acquisition planning process. NMO personnel stated that NASA normally
  conducts a search for alternate sources during the acquisition planning process. Because
  the contract was extended, NMO Procurement personnel postponed the search for
  alternate sources until planning for the competition or renewal of the JPL contract. As
  stated in the 2008 review, “Review and Findings” (Section 2.d.):

             [R]enewal o f t he co ntract w ith C altech is n ot n ecessary a t th is tim e. A s described
             above, the period of performance will run until at least September 30, 2010, but could
             possibly e xtend u ntil D ecember 31, 2012. A de tailed, comprehensive acquisition
             strategy will be performed to explore all alternatives prior to competing or negotiating
             a follow-on contract to the present agreement. This activity is expected to commence
             no later than October 2009.

  This consideration of alternative sources will be more than 7 years after the 2002 review
  was completed and may be delayed further with the award of additional term extensions.


Guidance Encourages Competition

  A March 4, 2009, Presidential Memorandum 9 states that the Government must move
  away from cost-reimbursement contracts toward fixed-price contracts and must also

  9
      Available online at http://www.whitehouse.gov/the press office/Memorandum-for-the-Heads-of-
      Executive-Departments-and-Agencies-Subject-Government/ (accessed September 11, 2009).



REPORT NO. IG-09-022-R                                                                                       17
                                                                                                             RESULTS



     move away from sole-source awards toward full and open competition. The
     Memorandum also states that “it is the policy of the Federal Government that executive
     agencies shall not engage in non-competitive contracts except in those circumstances
     where their use can be fully justified and where appropriate safeguards have been put in
     place to protect the taxpayer.”

     NASA has used a CPAF contract for its FFRDC since 1993 and introduced award term
     incentives in the 2003 contract. Since 2003, NASA has awarded term extensions to
     Caltech without competition for each of the 5 periods of performance. As of April 2009,
     NASA had awarded Caltech 27 months in term extensions, worth approximately
     $3.3 billion. 10 In addition, the structure of the 2003 contract allows Caltech to earn
     additional award fees and term extensions for performance periods added to the contract
     as a result of previously awarded term extensions, which could further increase the time
     between competitive evaluations.

     Guidelines for when or how to effectively use award terms do not exist in any Federal or
     NASA guidance. However, the FAR explicitly requires the FFRDC sponsor conduct a
     comprehensive review, to include “consideration of alternative sources to meet the
     sponsor’s needs,” prior to extending the contract. Therefore, NASA should have
     completed a comprehensive review with each term extension awarded beyond the FAR-
     imposed 5-year limit for FFRDC review. Completion and documentation of such a
     review would provide assurance that Caltech is providing NASA the best value for
     taxpayer money.


An Alternative Approach to Award Term Extensions Could
  Effectively and Efficiently Meet FAR Requirements

     Because the FAR lacks specifics on both the practical use of award terms and issuance of
     contract modifications for non-negotiated changes, NASA is challenged to effectively and
     efficiently integrate the FAR requirements with award term extensions. NASA
     Procurement Information Circular 06-02, “Use of Award Term Incentive,” January 25,
     2006, acknowledges this, stating that “with the lack of regulatory guidance relating to
     award term, the structure of the incentive and the evaluation methodologies employed
     have grown very diverse.”

     The Performance Evaluation Plan states that “the earned award fee and award term will
     be incorporated into the contract through a unilateral contract modification issued by the
     contracting officer within 60 days (goal) of the FDO’s determination for the period.”
     This is in line with FAR 43.2, “Change Orders,” Section 204(b)(1), which states that
     “contracting officers shall negotiate equitable adjustments that resulted from change
     orders in the shortest practicable time.” Although the FAR does not address when or how

     10
          Each additional year that Caltech earns in award term extensions is worth approximately $1.5 billion.



18                                                                                       REPORT NO. IG-09-022-R
RESULTS



  to effectively use award terms, it does state that a comprehensive review of the use and
  need of the FFRDC must be completed every 5 years or prior to extending the contract.
  Therefore, to be compliant with the FAR, NASA should conduct a comprehensive review
  when the contract is extended by an award term, which is, potentially, every year.

  However, NASA may be able to eliminate the completion of successive FFRDC reviews
  by amending the Performance Evaluation Plan to, in effect, escrow all award terms
  earned or lost during the base years of the contract and conducting a comprehensive use
  and need review at the end of the base term. The FFRDC review could then be cost-
  effectively completed, as required, at both contract extension and every 5 years. This
  approach would provide for a more effective and efficient use of award terms, allowing
  NASA to be FAR-compliant, save administrative effort, and avoid unnecessarily
  expending taxpayer dollars by completing reviews in successive years. In addition, the
  contract modification covering the escrowed award terms could exclude the provision for
  award terms, thus eliminating the current practice of allowing additional award terms to
  be earned during the extended contract performance periods. NASA is unique in
  allowing these additional award terms; other Federal agencies operating FFRDCs allow
  award terms to be earned only during the FFRDC contract’s base years.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 5. The NASA Management Office Procurement Officer should perform
a comprehensive review in accordance with FAR, to include a proactive search for
alternative sources, as soon as practicable.

  Management’s Response. The Assistant Administrator for Procurement concurred,
  stating that the NMO will draft a plan to assemble updated NASA requirements for JPL
  that will be used in a proactive search for alternative sources. The estimated completion
  date is unknown, but a proactive search will commence by fall 2009 and continue through
  the acquisition phase of the new contract.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive. The recommendation is resolved and will be closed upon completion and
  verification of corrective actions to be taken during the acquisition phase of the new
  contract.

Recommendation 6. The NASA Management Office Procurement Officer should
reevaluate the use of award term for any future FFRDC contract.

  Management’s Response. The Assistant Administrator for Procurement concurred,
  stating that the NMO will consult with the Office of Procurement and the NASA
  Associate Administrator’s office on JPL contract and incentive alternatives. They do not
  foresee using an award term for future JPL contracts, and the current contract does not


REPORT NO. IG-09-022-R                                                                        19
                                                                                         RESULTS



     allow any additional award terms beyond those already awarded. The estimated
     completion date for considering alternative contract vehicles is February 2010, during the
     acquisition planning phase of the new contract.

     Evaluation of Management’s Response. Management’s proposed action is responsive.
     The recommendation is resolved and will be closed upon completion and verification of
     management’s corrective action.




20                                                                       REPORT NO. IG-09-022-R
RESULTS




                                                        FINDING D: A SINGLE CPAF
                                                        CONTRACT IS NOT THE BEST
                                                           VEHICLE FOR MANAGING
                                                                  NASA’S FFRDC

             We determined that a single CPAF contract is not the best contract vehicle to procure
             services from Caltech to manage and operate JPL as an FFRDC. JPL had been
             managed using multiple CPFF contacts for more than 35 years. In 1993, in part to
             respond to a GAO recommendation, 11 the two CPFF contracts, one for research and
             development activities and the other for facility operations, were consolidated into a
             single CPAF contract.

             Using a single CPAF contract for the operation of the entire FFRDC is difficult for
             NASA to effectively manage because the contractor is responsible for multiple,
             complex, and often unrelated deliverables. In addition, a CPAF contract requires
             significant oversight and documentation to evaluate contractor performance and, by
             its nature, does not always motivate cost control. The FAR suggests the use of a
             fixed-price contract when the costs can be established reasonably and the risk is low,
             as is the case with a number of the services provided by Caltech under the single
             CPAF contract. NASA did not perform a cost-benefit analysis to ensure that the
             benefits of a CPAF contract adequately offset the additional costs associated with
             contract administration. NASA also did not adequately evaluate alternative contract
             vehicles to support JPL operations. As a result, NASA may not be getting the best
             value for the taxpayer.


FAR and NASA’s Award Fee Contracting Guide Describe the
  Best Use of Various Contract Types

  FAR 16.103b, “Negotiating Contract Type,” states that a “firm-fixed-price contract,
  which best utilizes the basic profit motive of business enterprise, shall be used when the
  risk involved is minimal or can be predicted with an acceptable degree of certainty.”
  Similarly, FAR 16.202-2, “Firm-Fixed-Price Contracts, Application,” states that such a
  contract is suitable for acquiring commercial items or for acquiring other supplies or
  services on the basis of reasonably definite functional or detailed specifications when the
  contracting officer can establish fair and reasonable prices at the outset. The FAR
  addresses time-and-materials contracts in FAR 16.601(b), “Time-and-Materials
  Contracts, Application,” stating that such a contract may be used only when it is not
  possible at the time of placing the contract to estimate accurately the extent or duration of

  11
       GAO. “NASA Procurement: Proposed Changes to the Jet Propulsion Laboratory Contract”
       (GAO/NSIAD-93-178, July 1993).



REPORT NO. IG-09-022-R                                                                            21
                                                                                                RESULTS



     the work or to anticipate costs with any reasonable degree of confidence. Managing the
     facility operations portion of JPL could potentially be best served by either type of
     contract vehicle.

     Conversely, a CPAF contract, or a number of CPAF contracts, may be the most
     appropriate vehicle for the research and development activities performed at JPL.
     FAR 16.301-2, “Cost-Reimbursement Contracts, Application,” states that cost-
     reimbursement contracts are suitable for use only when uncertainties involved in contract
     performance do not permit costs to be estimated with sufficient accuracy to use any type
     of fixed-price contract. Also, FAR 16.405 2(b)(iii) states that a CPAF contract is suitable
     for use when any additional administrative effort and cost required to monitor and
     evaluate performance are justified by the expected benefits. In addition, FAR 16.405-2(a)
     states that a CPAF contract provides for an award that is sufficient to motivate excellence
     in such areas as quality, timeliness, technical ingenuity, and cost-effective management.

     NASA’s Award Fee Contracting Guide, Section 1.3 states a CPAF contract is appropriate
     to use when key elements of performance cannot be objectively measured. CPAF
     contracts can also be used to procure design, development, and initial fabrication of state-
     of-the-art hardware, such as a new type of planetary probe or an experimental aircraft.
     The Guide further states that since award fee contracts require additional administrative
     effort, they should only be used when the contract values, performance period, and
     expected results warrant that additional management effort. As noted in NASA’s Award
     Fee Contracting Guide, evaluation of performance under a CPAF contract requires much
     greater effort than a CPFF contract.


NASA Did Not Analyze the Cost or Benefit of Using a Single
 CPAF Contract

     During GAO’s fieldwork on NASA’s use of award fees for a report issued in
     January 2007, 12 GAO questioned whether NASA had conducted a cost-benefit analysis to
     justify the use of a single CPAF contract for procuring services from Caltech for the
     operation of JPL. Specifically, GAO asked whether (1) a cost-benefit analysis was
     conducted to justify the use of a CPAF contract; (2) what costs were included, and
     (3) what benefits were considered in the analysis. The NMO Procurement Officer at the
     time responded that a cost-benefit analysis was completed, but the analysis was not
     conducted with enough detail to include a specific delineation of costs, and that the use of
     a CPAF contract was deemed appropriate during acquisition strategy planning sessions.

     Because GAO found no instances where a documented cost-benefit analysis had been
     done for any of the NASA contracts that it reviewed for its 2007 report, GAO

     12
          GAO. “NASA Procurement: Use of Award Fees for Achieving Program Outcomes Should be Improved”
          (GAO-07-58, January 2007)



22                                                                             REPORT NO. IG-09-022-R
RESULTS



  recommended that the NASA Administrator direct the Centers to consider costs and
  benefits in choosing a CPAF contract by requiring, in accordance with the FAR,
  documentation explaining how the perceived benefits would offset the additional costs
  associated with contract administration. However, NASA has not had an opportunity to
  complete a thorough cost-benefit analysis because a follow-on contract has not been
  awarded.

  For a CPAF contract to be cost-effective, NASA needs to ensure objective metrics are
  developed and a supportable mechanism is established for evaluating the effectiveness of
  performance against desired results. Without a detailed cost-benefit analysis, NASA is
  unnecessarily increasing the risk of not getting the best value for the taxpayer.


Trends in the Use of Cost-Reimbursement Contracts

  In 1993, NASA consolidated the two CPFF contracts into a single CPAF contract for the
  operation and management of JPL. According to the NMO, the motivation behind
  moving to a cost-reimbursement contract was to inspire the contractor to perform as
  efficiently as possible while succeeding at its multiple research and development
  activities. The NMO Procurement staff also stated that the move served to respond to a
  GAO recommendation for NASA to use a cost-reimbursement contract for its FFRDC.
  However, the recommendation did not specify that NASA should use a single CPAF
  contract to procure services from Caltech for the management of JPL.

  GAO’s 1993 report 13 recommended that NASA “authorize a deviation from NASA
  policy to pay a fee only if its purpose and amount have been adequately justified in
  writing and, if a fee is authorized, apply NASA’s agencywide initiative for contract
  excellence to the JPL contract and base the fee on management performance.” GAO
  made this recommendation because NASA was paying Caltech an annual fee based on
  estimates of the volume of work to be conducted at JPL. This was despite a NASA
  policy prohibiting the payment of fees to educational institutions and to which no waiver
  had been obtained.

  While a CPAF contract was in line with Government contracting trends in the 1990s
  that continue today, cost-reimbursement contracts are no longer the preferred vehicles
  for the private sector. According to the 14th Annual Government Contractor Survey,
  conducted in 2008 by Grant Thornton, 14 Government agencies increased their use of
  cost-reimbursement contracts over the last 4 years, noting that the use of cost-
  reimbursement contracts within the Federal Government went from 28 percent in
  2005 to 45 percent in 2008. The Survey also notes that contracting in the private sector

  13
       GAO. “NASA Procurement: Proposed Changes to the Jet Propulsion Laboratory Contract”
       (GAO/NSIAD-93-178, July 1993).
  14
       Grant Thornton is one of the six global accounting, tax, and advisory organizations.



REPORT NO. IG-09-022-R                                                                        23
                                                                                             RESULTS



     “normally uses fixed-priced or time-and-materials contracts while the government
     continues to maximize the use of cost-reimbursable contracts.”

     The Survey results indicate that private industry is moving in the direction called for by
     the Presidential Memorandum of March 4, 2009, which states that the Government must
     move away from cost-reimbursement contracts. The Presidential Memorandum also
     states that Federal Government executive agencies should not engage in non-competitive
     contracts unless their use can be fully justified and urges a preference for fixed-price type
     contracts.


Use of Multiple Contracts May Save Time and Money

     We concluded that using a single CPAF contract for the operation of the entire FFRDC is
     difficult for NASA to effectively manage because the contractor is responsible for
     multiple, complex, and often unrelated deliverables. For example, the contractor is
     delivering products that are crucial to NASA’s missions in the areas of astrophysics, earth
     sciences, solar system exploration, and technology. However, the JPL contractor is also
     responsible for such things as diversity and equal opportunity, media releases,
     information assurance, safety and mission assurance, and outreach. At other NASA
     Centers, contracts generally are awarded by project and evaluations of the contractors’
     performance do not include the operation of normal center functions (for example, safety,
     public affairs, maintenance of the grounds). Assessing contractor performance in these
     multiple, diverse areas creates a significant burden on NASA resources and requires
     several different levels of management and staff, including scientists, Deputy Directors,
     Directors, and Associate Administrators at NASA Headquarters.

     For routine facility operations at the FFRDC, we believe that either a firm-fixed-price or a
     time-and-materials contract would be a more appropriate procurement vehicle. A fixed-
     price contract provides for a firm price or, in appropriate cases, an adjustable price. It can
     also provide for an adjustable price that includes a ceiling price, a target price, or both. A
     time-and-materials contract has the contractor acquire services on the basis of direct labor
     hours at specific fixed hourly rates and acquire supplies at cost. Either type of contract
     could be used effectively for JPL’s facility operations. This would place maximum risk
     and full responsibility for all contract costs on the contractor, incentivizing the contractor
     to control costs and perform effectively and efficiently.

     For research and development activities, we believe that a CPFF contract would be the
     most appropriate contract vehicle. A CPFF contract would allow the contractor’s costs to
     be covered and a set fee paid each contract year. While a CPAF contract is also a viable
     contract alternative, we believe that potential benefits of a CPAF contract are outweighed
     by the time and effort required to appropriately evaluate contractor performance for such
     a large and diverse contract. NASA could potentially save time and money by using a
     CPFF contract.



24                                                                         REPORT NO. IG-09-022-R
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 7. The NASA Management Office Procurement Officer should ensure
implementation of the 2007 GAO recommendation to conduct a cost-benefit analysis to
justify the use of CPAF contracts.

  Management’s Response. The Assistant Administrator for Procurement concurred,
  stating that the NMO will coordinate with the Office of Procurement to ensure that a cost-
  benefit analysis is conducted if a CPAF contract is used for the new contract. The action
  will be completed in conjunction with corrective actions taken in response to
  Recommendation 8.

  Evaluation of Management’s Response. Management’s proposed action is responsive.
  The recommendation is resolved and will be closed upon completion and verification of
  management’s corrective action.

Recommendation 8. NASA should consider alternative contract vehicles, or a mix of
contract vehicles, for any FFRDC follow-on contracts.

  Management’s Response. The Assistant Administrator for Procurement concurred,
  stating that an alternative contract vehicle or a mix of contract vehicles will be considered
  during the acquisition planning process for the new contract. The estimated completion
  date is fall 2009, when NMO will provide NASA Headquarters a set of contracting
  options.

  Evaluation of Management’s Response. Management’s proposed action is responsive.
  The recommendation is resolved and will be closed upon completion and verification of
  management’s corrective action.




REPORT NO. IG-09-022-R                                                                            25
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from August 2008 through July 2009 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We concentrated our review on FY 2007 because, at the start of our audit, it was the most
  current complete contract period of performance available. We reviewed the
  Performance Evaluation Plan, the criteria used to evaluate the contractor, the PPEs’
  primary performance evaluation reports, and the CPMs’ Performance Monitor Reports for
  FY 2007. We interviewed PPEs and CPMs to gain an understanding of how they
  evaluated the contractor and how they determined adjectival ratings and numerical scores.
  We used FY 2007 documentation in our discussions with the PPEs and CPMs, and we are
  confident that the answers we obtained were not from the “FY-2008 or FY-2009
  perspective,” as posited in management’s comments (see Appendix D, page 36).

  We performed work at the NMO and the Defense Contract Audit Agency office located at
  JPL to assess the contract value and the values related to the work performed under the
  contract. We interviewed the NMO Procurement Officer, contracting officers, and
  Defense Contract Audit Agency representatives. To determine whether the requirements
  to operate JPL as an FFRDC were met for FYs 2004–2008 and 2009–2013, we reviewed
  the use and need determination documents.

  Computer-Processed Data. We used computer-processed data to perform this audit.
  The primary performance evaluation reports and Performance Monitor Reports are
  entered into the JPL Evaluation Tool (JET) system, a system set up by the NMO in 2007
  to track and archive the documents. The NASA Headquarters Information Technology
  Support Services contractor designed the JET system, but the contract was not renewed
  and a new contractor took responsibility for implementing the JET system. However,
  software problems arose with the transition and some data entered into the system for
  FY 2007 was lost. Therefore, we do not have reasonable assurance that we received all of
  the documents used to brief the PEB and the FDO. However, the NMO provided us data
  that was last modified on March 14, 2007, and was thought to be the most accurate and
  complete available. We believe that we received the majority of the documentation and,
  therefore, our audit work, findings, and conclusions were not affected.




REPORT NO. IG-09-022-R                                                                        27
                                                                                      APPENDIX A



     OIG Calculation of the Weight of Cost Control Measures. Although the following
     calculation is specific to the FY 2007 award fee criteria, similar calculations were made
     for award years FY 2004 through FY 2006 and FY 2008. Criteria in both the
     programmatic and institutional performance evaluation factors included some measure of
     cost control. As shown in Appendix C, 12 of the 45 criteria for FY 2007 had some
     measure of cost control. We calculated the weight of those cost control measures to be
     12 percent of the total weighted evaluation factors (11.24 percent under the programmatic
     factor and 1.19 percent under the institutional factor; rounded from 12.43 percent to
     12 percent), which is well below the required 25 percent. Following are details of our
     calculations.

        Programmatic Performance Evaluation Factor. The Performance Evaluation Plan
        weighted the programmatic factor at 65 percent. The factor comprised 21 criteria
        addressing three elements: technical, schedule, and cost. The Performance Evaluation
        Plan did not specify a weight for each element; therefore, we considered each to be
        equally important and assigned a weight of one-third (0.33) of the programmatic
        factor’s weight.

            Weight for each of the three elements (technical, schedule, and cost):
              0.33 x 65 percent = 21.45 percent

        Of the programmatic factor’s 21 criteria, 11 (52 percent) included a cost control
        measure. We calculated the weight for cost control measures using the weight for the
        cost element (21.45 percent) and the percentage of the factor’s criteria that included
        cost control.

            Weight of cost control measures in the programmatic factor:
              52 percent x 21.45 percent = 11.15 percent

        Institutional Performance Evaluation Factor. The Performance Evaluation Plan
        weighted the institutional factor at 25 percent. Of the factor’s 21 criteria,
        1 (4.76 percent) addressed cost. We applied the institutional factor’s full weight
        (25 percent) to the percentage represented by the criterion addressing cost.

            Weight of cost control measures in the institutional factor:
              4.76 percent x 25 percent = 1.19 percent


Review of Internal Controls

     We reviewed and evaluated the internal controls associated with documenting the
     evaluation of performance, assigning adjectival ratings and numerical scores, and
     determining the final award fee score. We found deficiencies in all three areas, as
     discussed in this report. Our recommendations, if implemented, should correct the
     weaknesses we identified.


28                                                                         REPORT NO. IG-09-022-R
APPENDIX A



Prior Coverage

  During the last 5 years, GAO issued a report of particular relevance to the subject of this
  report. A 2004 NASA report was also relevant. Unrestricted reports can be accessed
  over the internet at http://www.gao.gov (GAO) and
  http://oig.nasa.gov/audits/reports/FY04 (NASA).

  Government Accountability Office

  “Federal Contracting: Guidance on Award Fees Has Led to Better Practices but Is Not
  Consistently Applied” (GAO-09-630, May 2009)

  “NASA Procurement: Use of Award Fees for Achieving Program Outcomes Should Be
  Improved” (GAO-07-58, January 17, 2007)

  National Aeronautics and Space Administration

  “Audit of Incentive/Award Fee Structure Under the Space Flight Operations Contract”
  (IG-04-014, March 23, 2004)




REPORT NO. IG-09-022-R                                                                          29
                                                                                   APPENDIX B




                                                             AWARD FEE PROCESS


     NASA’s Award Fee Contracting Guide states that the award fee earned is calculated by
     applying the total numerical score (the award fee score) to the award fee pool. The Fee
     Determination Official (FDO) sets the award fee score, based on information provided by
     the Performance Evaluation Board (PEB). That information is an accumulation of
     assessments by NASA evaluators: Primary Performance Evaluators (PPEs) and Contract
     Performance Monitors (CPMs).

     At the time of our audit, NASA had 18 PPEs for the JPL contract: SMD had six, one for
     each program, and other Directorates and Offices each had one. CPMs monitor and
     assess the contractor’s performance, providing biannual Performance Monitor Reports
     and recommending an adjectival rating to the appropriate PPE.

     The PPEs use the Performance Monitor Reports to assign numerical scores and to prepare
     a primary performance evaluation report that summarizes the CPMs’ assessments of the
     contractor’s performance. The PPEs then prepare summary charts and make
     presentations to the PEB as to the strengths and weaknesses of the contractor and
     recommending an overall numerical score. PEB members discuss the evaluations and
     provide the FDO with their recommendation. The FDO decides on the final award fee
     score, which is used to make award fee and award term determinations.




30                                                                    REPORT NO. IG-09-022-R
APPENDIX C




                                                          FY 2007 EVALUATION
                                                                    CRITERIA


  The following table shows the 45 criteria of the three peformance evaluation factors
  (programmatic, institutional, and outreach), the NASA evaluators’ FY 2007
  recommended rating, and whether the criterion addressed cost control. The
                                                                                  .

                                                        Performance
                                                         Evaluation     Recommended       Cost
     No.          Directorate/Office        Criteria       Factor          Rating        Control
      1      SMD/Astrophysics              Astro-1      Programmatic
      2      SMD/Astrophysics              Astro-2      Programmatic
      3      SMD/Astrophysics              Astro-3      Programmatic
      4      SMD/Astrophysics              Astro-4      Programmatic
      5      SMD/Earth Science             ES-1         Programmatic
      6      SMD/Earth Science             ES-2         Programmatic
      7      SMD/Earth Science             ES-3         Programmatic
      8      SMD/Earth Science             ES-4         Programmatic
      9      Exploration Systems Mission   ESMD-1       Programmatic
     10      SMD/Heliophysics              Helio-1      Programmatic
     11      SMD/Heliophysics              Helio-4      Programmatic

     12      SMD/Management and Policy     MPD-2        Programmatic
             Division

     13      SMD/Management and Policy     MPD-3        Programmatic
             Division

     14      SMD/Mars Exploration          Mars-1       Programmatic
             Program

     15      SMD/Mars Exploration          Mars-2       Programmatic
             Program

     16      SMD/Mars Exploration          Mars-3       Programmatic
             Program
     17      SMD/Planetary Science         PS-1         Programmatic
     18      SMD/Planetary Science         PS-2         Programmatic
     19      SMD/Planetary Science         PS-3         Programmatic
     20      SMD/Planetary Science         PS-4         Programmatic
     21      Space Operations Mission      SOMD-1       Programmatic



REPORT NO. IG-09-022-R                                                                      31
                                                                                 APPENDIX C



                                                      Performance
                                                       Evaluation      Recommended     Cost
     No.         Directorate/Office        Criteria      Factor           Rating      Control
     22    Chief Engineer                 CEO-1       Institutional
     23    Chief Engineer                 CEO-2       Institutional
     24    Chief Engineer                 CEO-3       Institutional
     25    Chief Information Officer      CIO-1       Institutional
     26    Chief Information Officer      CIO-2       Institutional
     27    Chief Information Officer      CIO-3       Institutional

     28    Diversity and Equal            D&EO-1      Institutional
           Opportunity
           Diversity and Equal
     29    Opportunity                    D&EO-2      Institutional

     30    Infrastructure and             OIA-1       Institutional
           Administration

     31    Infrastructure and             OIA-2       Institutional
           Administration

     32    Infrastructure and             OIA-3       Institutional
           Administration

     33    Infrastructure and             OIA-4       Institutional
           Administration

     34    Infrastructure and             OIA-5       Institutional
           Administration

     35    Infrastructure and             OIA-6       Institutional
           Administration

     36    Infrastructure and             OIA-7       Institutional
           Administration
     37    NASA Management Office         NMO-1       Institutional
     38    NASA Management Office         NMO-2       Institutional
     39    NASA Management Office         NMO-3       Institutional
     40    Safety and Mission Assurance   OSMA-1      Institutional
     41    Safety and Mission Assurance   OSMA-2      Institutional
     42    Safety and Mission Assurance   OSMA-7      Institutional

     43    Small and Disadvantaged        SDBU-1      Outreach
           Business Utilization
     44    Strategic Communications       CSC PA-1    Outreach
     45    Strategic Communications       CSC PA-2    Outreach




32                                                                    REPORT NO. IG-09-022-R
APPENDIX D




                         MANAGEMENT COMMENTS




REPORT NO. IG-09-022-R                         33
                APPENDIX D




34   REPORT NO. IG-09-022-R
APPENDIX D




REPORT NO. IG-09-022-R   35
                APPENDIX D




36   REPORT NO. IG-09-022-R
APPENDIX D




REPORT NO. IG-09-022-R   37
                                                                                 APPENDIX E




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Assistant Administrator for Procurement
     NASA Management Office Director, JPL
     NASA Management Office Procurement Officer

 Note: The redacted version of this report was distributed to non-NASA organizations
 and individuals and to members of Congress.


Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




38                                                                  REPORT NO. IG-09-022-R
Major Contributors to the Report:
   Ray Tolomeo, Director, Science and Aeronautics Research Directorate
   Vincent Scott (former Director, OIG Procurement Directorate)
   Diane Choma, Project Manager
   Stephanie Chapman, Team Lead (former OIG management analyst)
   William Falter, Auditor
   Liz Shifflett, Report Process Manager




REPORT NO. IG-09-022-R                                                   39
                                                                                SEPTEMBER 25, 2009
                                                                    REPORT No. IG-09-022-R




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please contact Mr. Joel Rodriguez, Quality Assurance, at
Joel.Rodriguez@nasa.gov or 202-358-4440.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
